<html>
<title> - MEETING THE CHALLENGE OF WHITE NATIONALIST TERRORISM AT HOME AND ABROAD</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


MEETING THE CHALLENGE OF WHITE NATIONALIST TERRORISM AT HOME AND ABROAD

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
       THE MIDDLE EAST, NORTH AFRICA, AND INTERNATIONAL TERRORISM

                                 OF THE

                     COMMITTEE ON FOREIGN AFFAIRS,

                                WITH THE

                            SUBCOMMITTEE ON
                    INTELLIGENCE AND CONTERTERRORISM

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           September 18, 2019

                               __________

                           Serial No. 116-63

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                       or http://www.govinfo.gov
                       
                       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-706PDF                 WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------                       
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

                   ELIOT L. ENGEL, New York, Chairman
                   
BRAD SHERMAN, California             MICHAEL T. McCAUL, Texas, Ranking 
GREGORY W. MEEKS, New York               Member
ALBIO SIRES, New Jersey		     CHRISTOPHER H. SMITH, New Jersey     
GERALD E. CONNOLLY, Virginia         STEVE CHABOT, Ohio
THEODORE E. DEUTCH, Florida	     JOE WILSON, South Carolina
KAREN BASS, California		     SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	     TED S. YOHO, Florida
DAVID CICILLINE, Rhode Island	     ADAM KINZINGER, Illinois
AMI BERA, California		     LEE ZELDIN, New York
JOAQUIN CASTRO, Texas		     JIM SENSENBRENNER, Wisconsin
DINA TITUS, Nevada		     ANN WAGNER, Missouri
ADRIANO ESPAILLAT, New York          BRIAN MAST, Florida
TED LIEU, California		     FRANCIS ROONEY, Florida
SUSAN WILD, Pennsylvania	     BRIAN FITZPATRICK, Pennsylvania
DEAN PHILLPS, Minnesota	             JOHN CURTIS, Utah
ILHAN OMAR, Minnesota		     KEN BUCK, Colorado
COLIN ALLRED, Texas		     RON WRIGHT, Texas
ANDY LEVIN, Michigan		     GUY RESCHENTHALER, Pennsylvania
ABIGAIL SPANBERGER, Virginia	     TIM BURCHETT, Tennessee
CHRISSY HOULAHAN, Pennsylvania       GREG PENCE, Indiana
TOM MALINOWSKI, New Jersey	     STEVE WATKINS, Kansas
DAVID TRONE, Maryland		     MIKE GUEST, Mississippi
JIM COSTA, California
JUAN VARGAS, California
VICENTE GONZALEZ, Texas                 
   
                    Jason Steinbaum, Staff Director

               Brendan Shields, Republican Staff Director
                                 ------                                

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism

                 THEODORE E. DEUTCH, Florida, Chairman
GERALD E. CONNOLLY, Virginia         JOE WILSON, South Carolina, 
DAVID CICILLINE, Rhode Island            Ranking Member
TED LIEU, California		     STEVE CHABOT, Ohio
COLIN ALLRED, Texas		     ADAM KINZINGER, Illinois
TOM MALINOWSKI, New Jersey	     LEE ZELDIN, New York
DAVID TRONE, Maryland	             BRIAN Mast, Florida
BRAD SHERMAN, California	     BRIAN FITZPATRICK, Pennsylvania
WILLIAM KEATING, Massachusetts	     GUY RESCHENTHALER, Pennsylvania
JUAN VARGAS, California		     STEVEN WATKINS, Kansas

                      Casey Kustin, Staff Director                   
                      
                 
                      
                      
                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

SHEILA JACKSON LEE, Texas            MIKE ROGERS, Alabama, Ranking 
JAMES LANGEVIN, Rhode Island             Member
CEDRIC RICHMOND, Louisiana	     PETER KING, New York
DONALD PAYNE, New Jersey	     MICHAEL MCCAUL, Texas
KATHLEEN RICE, New York		     JOHN KATKO, New York
LOU CORREA, California		     MARK WALKER, North Carolina
XOCHITL TORRES SMALL, New Mexico     CLAY HIGGINS, Louisiana
MAX ROSE, New York		     DEBBIE LESKO, Arizona 
LAUREN UNDERWOO, Illinois	     MARK GREEN, Tennessee
ELISSA SLOTKIN, Michigan	     VAN TAYLOR, Texas
EMANUEL CLEAVER, Missouri            JOHN JOYCE, Pennsylvania
AL GREEN, Texas                      DAN CRENSHAW, Texas
YVETTE CLARK, New York		     MICHAEL GUEST, Mississippi
DINA TITUS, Nevada		     DAN BISHOP, North Carolina
BONNIE WATSON COLEMAN, New Jersey
NANETTE BARRAGAR, California
VAL DEMINGS, Florida

                                 ------                                

           SUBCOMMITTEE ON INTELLIGENCE AND COUNTERTERRORISM

                      MAX ROSE, New York, Chairman

SHEILA JACKSON LEE, Texas            MARK WALKER, North Carolina, 
JAMES LANGEVIN, Rhode Island             Ranking Member
ELISSA SLOTKIN, Michigan	     PETER KING, New York
BENNIE G. THOMPSON, Mississippi, Ex  MARK GREEN, Tennessee
    Officio                          MIKE ROGERS, Alabama, Ex Officio

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Miller-Idriss, Dr. Cynthia, Director, International Training and 
  Education Program, School of Education, American University....     9
Picciolini, Mr. Christian, Founder, Free Radicals Project, 
  Author, ``Breaking Hate: Confronting the New Culture of 
  Extremism''....................................................    23
Nazarian, Dr. Sharon, Senior Vice President for International 
  Affairs, Anti-Defamation League................................    38

                                APPENDIX

Hearing Notice...................................................    99
Hearing Minutes..................................................   100
Hearing Attendance...............................................   101

       STATMENTS FOR THE RECORD SUBMITTED FROM COMMITTEE MEMBERS

Statement for the record submittedd from Representative Connolly.   102
Statement for the record submitted from Representative Jackson 
  Lee............................................................   104

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

Fewer Births Than Deaths Among Whites in Majority of U.S. States 
  submitted for the record from Representative Jackson Lee.......   113
ABC-News-Expert dissect reason why mass shooters target houses of 
  worship submitted for the record from Representative Jackson 
  Lee............................................................   118
PBS-White Christians are now a minority of the U.S. population, 
  survey says submitted for the record from Representative 
  Jackson Lee....................................................   121
List of Christan Places of Worship that have been Attacked 
  submitted for the record from Representative Jackson Lee.......   123

                  INFROMATION SUBMITTED FOR THE RECORD

Video entitled ``No More Talk'' (9.17.19) submitted for the 
  record from Mr. Christian Piccilini, this video is retained in 
  the Committee file.............................................   127

 
                     MEETING THE CHALLENGE OF WHITE
                NATIONALIST TERRORISM AT HOME AND ABROAD

                     Wednesday, September 18, 2019

                       House of Representatives,

   Subcommittee on the Middle East, North Africa, and International 
                               Terrorism,

              Committee on Foreign Affairs, joint with the

           Subcommittee on Intelligence and Counterterrorism,

                    Committee on Homeland Security,

                                     Washington, DC

    The subcommittees met, pursuant to notice, at 2:14 p.m., in 
room 310, Cannon House Office Building, Hon. Theodore E. Deutch 
(chairman of the Subcommittee on the Middle East, North Africa, 
and International Terrorism) presiding.
    Mr. Deutch. This hearing will come to order.
    Welcome, everyone.
    The Committee on Foreign Affairs' Subcommittee on the 
Middle East, North Africa, and International Terrorism is 
meeting today together with the House Committee on Homeland 
Security's Subcommittee on Intelligence and Counterterrorism to 
hear testimony on the domestic and global threat of white 
nationalist terrorism.
    I want to thank my co-chair of today's hearing, 
Intelligence and Counterterrorism Subcommittee Chair Max Rose. 
Thanks also to our ranking members, Joe Wilson and Mark Walker. 
And I also want to thank the Homeland Security Chairman Benny 
Thompson and Ranking Member Mike Rogers for hosting us in this 
really beautiful Homeland Security Committee hearing room. And 
I especially want to thank our witnesses for being here with us 
today.
    I hope this will be a serious examination of the threats 
that we face here in the United States and overseas and the 
interconnectivity of these threats.
    I will now recognize myself for the purpose of making an 
opening statement. And I will try to be brief, as we have a lot 
to cover.
    In recent months and years, it has become apparent that 
white nationalist terrorism is a growing threat, both here and 
abroad.
    In order to solve this problem, we must first identify it. 
Our government, intelligence services, and law enforcement 
agencies use multiple terms for white nationalist terrorism, 
including ``racially motivated extremists'' and ``white 
supremacist extremists,'' among others. But when my 
subcommittee held a hearing with the State Department's 
Counterterrorism Coordinator in July, he was unable to call 
this challenge by its name: white nationalist terrorism.
    Tragically, this mounting threat reared its ugly head only 
3 days later in the horrific attack in El Paso, Texas, that 
killed 22 people. In the last year, it led to other attacks at 
the Chabad Synagogue of Poway just north of San Diego; the Al 
Noor Mosque in the Linwood Islamic Centre in Christchurch, New 
Zealand; and the Tree of Life Synagogue in Pittsburgh.
    These attacks were preceded by, among others, a 2017 white 
nationalist terrorist attack at the Islamic Cultural Centre of 
Quebec City that killed 6, the 2015 terrorist attack at the 
Emanuel African Methodist Episcopal Church in Charleston that 
killed 9, and the 2011 attacks by Anders Breivik that killed 77 
people principally at a political youth camp in Norway.
    While these acts of violence may appear disparate and 
random, the terrorists allegedly responsible for them 
demonstrably drew inspiration from one another. They share an 
ideology that asserts, among other beliefs, that white people 
and white identity in Western countries are under siege by 
massive waves of immigration from non-white countries. White 
nationalists also perpetuate conspiracy theories that claim 
that Jews control industries, governments, and other 
organizations through shadow groups which allegedly pose a 
threat to white civilization.
    White nationalists claim they are protecting the white race 
and will use any means necessary to defend it against this 
supposed dispossession. This ideology helps explain why their 
targets include a wide array of people, from Latinx in Texas to 
Jews in Pennsylvania, to Muslims in New Zealand, to African-
Americans in South Carolina and teenagers in Scandinavia.
    The internet serves as a platform for white nationalists to 
disseminate this twisted ideology and even to broadcast these 
attacks. Technology enables interconnectivity between 
decentralized white nationalist terrorists, organizations, and 
networks and presents challenges to law enforcement efforts to 
track, monitor, and disrupt planned violence.
    White nationalist terrorism is a clear challenge to 
democratic governance, and its adherents espouse principles 
antithetical to both pluralistic values and to American ideals.
    It is also clear that the U.S. Government, including the 
State Department, is not doing enough to counter white 
nationalist terrorism and to track the global nature of this 
threat. We must learn more about how these movements recruit 
and radicalize and how they share ideas across networks, just 
as we seek to understand the interconnectivity of other 
threats.
    If we are to marginalize and isolate white nationalist 
terrorism, a whole-of-society effort is required, one that 
encompasses civil society and the private sector as well as 
government. This hearing is a chance for our subcommittee to 
gain a greater understanding of how the domestic and 
international dimensions of white nationalist terrorism 
overlap, especially regarding ideology, motivations, uses of 
technology, radicalization, and recruitment.
    White nationalist terrorism is not a Democratic or 
Republican problem. It is not just a domestic threat or solely 
an international challenge. I know we all take seriously the 
need to combat white nationalist terrorism, and I hope that our 
discussion today will help inform future efforts to meet this 
growing global challenge. And I am working on legislation to 
address our strategy to combat this threat that I hope and am 
confident can be bipartisan.
    I believe the insight and expertise of our witnesses will 
be an important contribution to our discussion going forward. I 
thank you for being here.
    And it is now my honor to recognize Ranking Member Wilson 
for the purpose of making an opening statement.
    Mr. Wilson. Thank you, Chairman Ted Deutch, Chairman Max 
Rose, and Ranking Member Mark Walker, for calling this joint 
subcommittee hearing today.
    There is no doubt that white supremacy extremism is a 
dangerous and hateful ideology which must be addressed. In my 
capacity as ranking member of the International Terrorism 
Subcommittee of the House Committee on Foreign Affairs, I am 
particularly interested in hearing more about the international 
dimension of this troubling phenomenon.
    Personally, I would like to learn more about the nature of 
this threat from our witnesses. How big of an international 
presence do white supremacy extremist groups have? How many 
international attacks have these kinds of groups claimed?
    Another important question is the organizational structure 
of the threat. The Islamic extremist terrorist threat that we 
have faced since September 11, 2001, appears to be much more 
organized in nature than the one that we are discussing today.
    While lone-wolf attacks carried out by individuals 
radicalized by the ideology of Islamic extremist terrorist 
groups have increased in recent years, this is still the 
exception to the more traditional model of attacks directed by 
a terrorist group.
    However, when we look at international white supremacy 
extremism attacks, they appear to be lone wolves inspired by 
perverted ideology. The terrorist who massacred 51 civilians at 
the mosque at Christchurch, New Zealand, in March claimed to be 
inspired by the Norwegian attacker who killed 77 people in Oslo 
in 2011. The shooter who killed 22 people in August at the 
Walmart in El Paso, Texas, allegedly claimed to have been 
inspired by the manifesto of the Christchurch shooter.
    Additionally, in some cases, it appears that the 
perpetrators of these attacks are inspired by a variety of 
hateful ideologies, not just white supremacy extremism. For 
example, the murderers in New Zealand and El Paso also were 
described as eco-fascists.
    With these murderous acts, are there bona fide linkages 
between the international white supremacist extremist 
attackers? Is this a real, united movement or deranged and 
dangerous individuals inspired by toxic hate on the internet?
    And, last, is this phenomenon different enough in nature 
and structure from the current well-financed and organized 
Islamic extremist terrorism threat that we face? Should we be 
approaching it in the same ways? Should we be using the same 
policy tools on a problem set that could be fundamentally 
different?
    We are faced with these critical questions. I look forward 
to hearing from the witnesses today.
    And, with that, I yield back the balance of my time.
    Mr. Deutch. Thank you, Mr. Wilson.
    I now recognize Chairman Rose for the purpose of making an 
opening statement.
    Mr. Rose. Thank you, Chairman Deutch. And it is really 
great to have these subcommittees together today, because we 
cannot afford to really deal with this issue in a silo anymore. 
So thank you again for setting this up.
    I want to also thank our great partners and witnesses here 
today. I look forward to hearing from you. Your work and the 
work that we have seen thus far shows us that this white 
nationalist threat is a threat that cannot be ignored.
    White nationalist terrorists have killed more people in 
recent years than any other type of domestic extremist. We also 
know that 78 percent of extremist-related murders in the United 
States last year were attributed to those adhering to a white 
nationalist ideology.
    On a larger scale, you know, we consider things as most 
likely threat and most dangerous threat, and the most likely 
threat from a terrorist perspective in America today is that of 
a self-radicalized lone gunman, lone gunwoman. And I think I 
speak for all of us today that we do not care which ideology 
they ascribe to; we just care whether it is an extremist one 
and a global one or not.
    We have seen that this is also a problem spreading abroad 
to our allies. In April, The New York Times published an 
analysis showing that since 2011 approximately one-third of 
white extremist killers were inspired by attacks globally. We 
saw how an attack in Norway inspired one at Christchurch, which 
inspired several here at home.
    Unsurprisingly, all of this has also shed a light on the 
world of social media companies as a catalyst for the spread of 
white nationalist propaganda both here and abroad. No longer 
can we look at these companies as exciting, new, unicorn 
companies started by teenagers in hoodies. They are large, 
global firms akin to General Motors. And I am sick and tired of 
hearing them brag about success rates in and around 60 percent, 
70 percent, 80 percent as it pertains to removing extremist 
content. If an auto company bragged about 70 percent of their 
airbags deploying, we would not think that that was 
satisfactory.
    This threat knows no boundaries. It does not end at 
traditional borders, and it tears across continents. As elected 
officials, I think our number-one priority is public safety, 
and that is why I am so proud that we are all focusing on this 
today.
    We have to make sure that the Federal Government is working 
better at data provision. Right now, the capacity of the 
Federal Government to provide high-level analytics on the white 
nationalist threat, the white extremist threat, and domestic 
terrorism is not nearly satisfactory.
    We also have to take into account that local law 
enforcement is now in the intelligence-gathering business and 
the terrorism-prevention business. I believe that the NYPD has 
done an extraordinary job in this regard, and we have to make 
sure that those lessons learned are supported for other law 
enforcement agencies throughout the country.
    Last, as I have said before, we have got to hold technology 
companies to a standard. And I look forward to hearing your 
thoughts about how, through public-private partnerships, we can 
hold them to a standard and do that in a constitutional manner.
    You know, we have set a framework for the last 20 years or 
so about what we should do in regards to jihadist-inspired 
global extremism. And now it is time for us to apply that 
framework in a responsible manner to this new threat that we 
face. We have got to consider how the State Department should 
expand foreign terrorist organization lists to include these 
violent international white supremacist groups.
    Today, if an American citizen swears allegiance to ISIS or 
another FTO and spreads their message of terror, there are 
several and significant resources available to the Federal 
Government and there are significant consequences for those 
actions. However, if that same American citizen swears 
allegiance to a white supremacist group based overseas and 
spreads their message of terror, the Federal Government does 
not have access to those same tools. And that is just, plain 
and simple, wrong.
    So I look forward to hearing your opinions today in regards 
to the issues that I brought up.
    And, with that, I thank the witnesses and the members for 
being here today, and I look forward to making progress on this 
important issue.
    Mr. Deutch. Thank you, Chairman Rose.
    I will now recognize Ranking Member Walker for the purpose 
of making an opening statement.
    Mr. Walker. Thank you much, Chairman. I appreciate the 
opportunity to participate in today's hearing.
    This week marks 56 years since the vicious murders of Addie 
Mae Collins, Cynthia Morris Wesley, Carole Robertson, and Carol 
Denise McNair at the hands of the Ku Klux Klan at the 16th 
Street Baptist Church in Birmingham, a place where I was there 
earlier this year honoring those lives. Over half a century 
later, we are still dealing with hatred, racism, and violence. 
There is no doubt that we must do more to counter these 
threats.
    The unfortunate reality is that no city in the United 
States is immune. On August 3d, the country was horrified by a 
domestic attack at a Walmart store in El Paso, Texas, where the 
killer was directly targeting immigrants and killed 22 innocent 
people and wounding 24 more. The very next day, a young man 
obsessed with violence and reportedly fueled by drugs carried 
out a deadly attack on a public street in Dayton, Ohio, killing 
9 people and wounding another 27 others. Several other attacks 
were reportedly disrupted through good police work and alert 
family members reporting these concerns.
    We must not forget the other domestic terror attacks over 
the past few years targeting radical and religious groups, 
including the Tree of Life Synagogue, the Chabad of Poway 
Synagogue, and the Emanuel African-American Methodist Episcopal 
Church.
    In June, we passed the 3-year anniversary of the attack on 
the Pulse nightclub in Orlando, Florida, and December will be 4 
years since the San Bernardino attack. Also this past June, at 
least 11 people were injured during an Antifa rally in 
Portland, Oregon. And, the next month, an inherent to the same 
ideology targeted a Department of Homeland Security facility in 
Washington State.
    The broad range of ideology-based hatred and societal 
obsession with violence has left scars across our country. I 
fully support an open and bipartisan discussion about domestic 
terrorism, hateful ideologies, and recommendations for 
addressing such threats.
    I am concerned about reports of global interconnectedness 
of United States-based domestic extremists and those overseas 
who share the same views. The far-reaching ability of jihadists 
to inspire and radicalize from their overseas safe havens have 
resulted in several hundred Americans going overseas to join 
their ranks or seek to carry out their attack in our homeland.
    Are we seeing these same trends develop with domestic 
extremists? While current data is not showing the same threat 
level, there are dangerous similarities between jihadist 
propaganda and the manifestos posted by domestic extremists. I 
think it is important to hear from the intelligence community 
and Federal law enforcement to get a full picture of the threat 
stream.
    Before closing, I do want to raise a concern that today's 
hearing was scheduled with very little advance notice to the 
minority side. That is not how the Committee on Homeland 
Security has worked in the past, especially this subcommittee. 
And I hope this is an anomaly and, going forward, the majority 
will work in good faith to provide more notice, particularly on 
hearings and roundtables related to such important things like 
threats to our homeland.
    I look forward to the testimony today, and I yield back.
    Mr. Deutch. Thank you, Mr. Walker.
    Without objection, all members may have 5 days to submit 
statements, questions, and extraneous materials for the record, 
subject to the length limitations in the rules.
    It is now my pleasure to introduce our witnesses.
    Dr. Cynthia Miller-Idriss is Professor of Education and 
Sociology and the director of research at the Center for 
University Excellence at the American University in Washington, 
DC. She has spent two decades researching radical and extreme 
youth culture in Europe and the U.S. She also writes widely on 
school-based responses to rising hate. She is a prolific author 
and researcher and is a senior fellow at the Centre for 
Analysis of the Radical Right. Previously, she taught at New 
York University, the University of Maryland, and the University 
of Michigan, where she also received her Ph.D. and two master's 
degrees.
    Mr. Christian Picciolini is an award-winning television 
producer, a public speaker, author, peace advocate, and a 
former violent extremist. Christian's involvement in and exit 
from the American white supremacist skinhead movement is 
chronicled in his memoir, ``White American Youth.'' He now 
leads the Free Radicals Project, a global extremism prevention 
and disengagement network, and has helped hundreds of 
individuals leave hate behind. He also has a forthcoming book, 
``Breaking Hate: Confronting the New Culture of Extremism.''
    And, finally, Dr. Sharon Nazarian is Senior Vice President 
of International Affairs at the Anti-Defamation League, where 
she heads the ADL's work fighting anti-Semitism and racial 
hatred globally, including overseeing ADL's Israel Office. She 
is also the president of the philanthropic Y&S Nazarian Family 
Foundation, the founder of the Y&S Nazarian Center for Israel 
Studies at UCLA and chair of its advisory board, and a member 
of the Council on Foreign Relations. She received her B.A., 
M.A., and Ph.D. from the University of Southern California.
    Thanks to all of you for being here today.
    Let me remind the witnesses to please limit your testimony 
to 5 minutes.
    And, without objection, your prepared written statements 
will be made part of the hearing record.
    Thank you so much for being here today.
    And, Dr. Miller-Idriss, we would start with you because of 
where you are sitting and because you hold so many degrees from 
the University of Michigan. You are recognized.

STATEMENT OF DR. CYNTHIA MILLER-IDRISS, DIRECTOR, INTERNATIONAL 
 TRAINING AND EDUCATION PROGRAM, SCHOOL OF EDUCATION, AMERICAN 
                           UNIVERSITY

    Dr. Miller-Idriss. Thank you.
    Chairman Rose, Chairman Deutch, Ranking Member Walker, 
Ranking Member Wilson, members of the committee, I would like 
to thank you for your service to this country and for calling 
attention to the critical threat from global white nationalist 
terrorism. I am honored to be here.
    Today's focus is on white nationalist terrorism, which I 
view as a subset of the broader phenomenon of white supremacist 
extremism. I will use both terms interchangeably to refer to an 
ideology that calls for lethal and mass violence as a solution 
to a supposed existential threat posed to whites from 
demographic change and immigration.
    The growing global threat of white nationalist terrorism 
and white supremacist extremism is well-documented. White 
supremacist extremism is currently the most lethal form of 
extremism in the U.S., causing at least 50 deaths in 2018.
    My written testimony documents rising trends in several 
areas: numbers of hate groups, propaganda, recruiting efforts, 
hate crimes, domestic terrorism arrests, and mass shooting 
plots. In my oral remarks, I would like to focus on how we 
should understand white nationalist ideology, its growing 
global interconnections, and what kinds of strategies might 
help address it.
    White nationalism is a global ideology. It integrates 
racist and exclusionary beliefs with two core ideas which both 
rely on mass violence as a solution.
    The first is the idea of a great replacement, or white 
genocide, which is based on a paranoid belief in an 
orchestrated invasion of immigrants, Muslims, or Jews who will 
eradicate or replace whites. These scenarios call whites to 
urgent action with appeals to protect and defend against a 
shared global threat of immigration and demographic change. 
They have inspired mass terrorist violence in recent years in 
Oslo, Pittsburgh, Christchurch, Poway, El Paso, and more.
    White nationalist terrorists believe that the only way to 
prevent the ultimate genocide of white populations by non-
whites is through an apocalyptic race war which will result in 
a restored white civilizational rebirth.
    Although there are important differences between Islamist 
and white supremacist extremisms, there are striking 
similarities to the Islamist extremist effort to restore the 
caliphate. In this sense, Islamist and white nationalist 
terrorists share a similar apocalyptic vision and use similar 
violent strategies to get there.
    White nationalist terrorists not only believe that a 
violent apocalypse is coming but also that the fastest way to 
reach the phase of racial rebirth is to accelerate the path to 
a new white civilization by speeding up polarization and 
undermining social stability.
    Violence is foundational to this approach because violent 
acts create immediate societal panic, inspire copycat actors, 
and encourage reciprocal or revenge terror attacks. For this 
reason, each violent act of terror is viewed as heroic, 
celebrated globally, and is understood to bring the movement 
one step further toward societal collapse and a new white 
civilization.
    Youth are attracted to this ideology in part for how it 
channels grievances and personal trauma into anger, blame, and 
resistance but also because it offers a sense of meaning, 
purpose, and a way to engage heroically with a brotherhood of 
warriors who seek to save the white race from an imminent 
threat.
    White nationalists are globally interconnected in at least 
five expanding areas: increasing crowdsourcing online, enabling 
more fundraising and growing financial interconnections; 
increasing sharing of tactics, techniques, and procedures, or 
TTPs, for attacks and other support activities, potentially 
contributing to more attacks; increased cross-national 
recruitment for combat--so Ali Soufan testified earlier this 
month that over 17,000 fighters from Western countries, 
including many from the U.S., have traveled to Ukraine to 
fight, mostly for white supremacist groups; increased sharing 
of manifestos and live-streamed attacks, driving more 
inspiration from terrorist attacks globally; and increased 
global gateways to extremist youth scenes that help build more 
networked relationships.
    Social media and online relationships and modes of 
communication are key to supporting all five of these global 
strategies and are essential to the radicalization pathways of 
youth.
    White nationalist terrorism will almost certainly continue 
to get worse. We face a highly contested election season, 
growing disinformation campaigns, increasing migration flows, 
and a social media landscape that enables hate to grow and 
thrive.
    There are steps that Congress can take to address this 
growing threat. We need improved interagency coordination, a 
rethinking of the division between international and domestic 
terrorism, and paths for cross-national collaboration with our 
allies.
    Federal and local law enforcement need resources and 
direction. We need improved national research capacity and 
expertise. And we need pathways to support local community 
engagement, communication, and preventative education.
    For the safety and security of our Nation but also for the 
well-being of all the youth, families, and local communities 
you represent, I urge this Congress to act to prevent violent 
terrorist attacks and help interrupt radicalization pathways 
before they begin.
    Thank you.
    [The prepared statement of Dr. Miller-Idriss follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thank you, Dr. Miller-Idriss.
    Mr. Picciolini.

   STATEMENT OF CHRISTIAN PICCIOLINI, FOUNDER, FREE RADICALS 
 PROJECT, AUTHOR, ``BREAKING HATE: CONFRONTING THE NEW CULTURE 
                         OF EXTREMISM''

    Mr. Picciolini. Thank you, Chairman Deutch, Chairman Rose, 
Ranking Members Wilson and Walker, and distinguished members of 
this vital committee--both vital committees and institution.
    I am honored by your invitation to testify today. I also 
want to acknowledge that I am privileged to be here, 
considering my past.
    I am a former extremist. In 1987, I was recruited into 
America's first neo-Nazi skinhead group and, at 14 years old, 
became one of the youngest and earliest members of what was 
then a fringe hate movement.
    For the next 8 years, I recruited other vulnerable youth, 
acted as a mouthpiece for hate, and wrote racist music that I 
performed for thousands of white supremacists across the United 
States and Europe.
    I rose quickly through the ranks to become a leader of the 
same white nationalist movement that, 30 years later, on August 
12, 2017, marched in Charlottesville, chanting, ``The Jews will 
not replace us,'' and killed a young woman named Heather Heyer.
    I escaped extremism in 1996 through the compassion of 
people I least deserved it from. Black and Latinx Americans, 
Jews, people from the LGBTQ community, and Muslims brought me 
back to humanity.
    After disengaging, I obsessed over how a typical, middle-
class, teenage son of Italian-American immigrant parents could 
become a violent white supremacist who forged alliances 
overseas. To better understand my own radicalization, I went 
back in, this time to prevent others from venturing down the 
same dark path.
    The number of former extremists I have helped disengage--
``formers,'' as we are called--is now in the hundreds from 
around the world, including a returned foreign fighter of the 
so-called Islamic State.
    What I have learned over 30 years is that the United States 
is losing vital ground in a battle we have yet to acknowledge 
exists on some levels. Violence by white supremacists has 
skyrocketed in America. Data from the FBI and groups like the 
Anti-Defamation League clearly document this disturbing trend.
    But the greater threat that has gone largely unnoticed and 
unchallenged for decades is how the tentacles of American white 
nationalism extend far beyond our borders and into a deep 
network of global terror.
    American white nationalists have spent decades building 
alliances with their counterparts overseas. They have developed 
a sophisticated online presence and receive material support 
from foreign allies through digital influence campaigns that 
directly bolster their narratives and propaganda and extend 
their reach.
    Like ISIS, white nationalists also distribute glossy print 
and electronic propaganda and produce high-quality recruitment 
videos. They trade in digital cryptocurrency, use social media 
on encrypted platforms to communicate, share ideas and 
resources, lure new sympathizers, and plan attacks. This is 
just what is occurring online.
    In 2018, the FBI reported white supremacists from 
Scandinavia, Northern Europe, and the United States were 
training as foreign fighters with foreign paramilitary groups 
like the neo-Nazi Azov Battalion in Ukraine and in far-right 
partisan training camps in Russia.
    They inflict terror the same way as foreign terrorist 
groups: bombing government facilities, planned interruption of 
critical infrastructure, using high-capacity military-style 
assault weapons against soft civilian targets, assassinations, 
and the use of vehicles to target crowds.
    We tend to view white nationalist attacks, like those in 
Charleston or El Paso, as isolated hate crimes, but I cannot 
stress enough that this view is naive and dangerous and will 
continue to expose Americans until we acknowledge that this 
threat is persistent and pervasive.
    White nationalism is a fast-growing global movement whose 
members are preparing for a coming race war while 
simultaneously trying to initiate one.
    The shooter in the attacks on two mosques in Christchurch, 
New Zealand, earlier this year posted a manifesto online deeply 
aligned with the core ideas of American white supremacist 
leaders. Though he was a 28-year-old Australian, in a video of 
the attack a Ukrainian Azov Battalion patch was visible on his 
body armor.
    This is just one example of how international cooperation 
leads to a body count. There are dozens more deadly incidents 
that have occurred recently right here at home. When we think 
of terrorism by the so-called Islamic State, we acknowledge the 
international dimensionality and the foreign special interests 
that allow it to exist and grow. We must do the same when it 
comes to white nationalist terrorism as a matter of national 
security.
    Adequate terrorism laws already exist to thwart and 
prosecute terrorists, as do plenty of capable and talented 
people who are ready to defend us from the threat of harm. But 
the current counterterrorism mandate does not provide for the 
proper focus, resources, funding, or, in some cases, the 
correct holistic approach to effectively counter extremism.
    Keeping Americans safe requires a strategy that redefines 
the threats we face, and it must be a balanced, nonpolitical, 
nonpartisan, and nondiscriminatory approach that recognizes 
violent nationalism as part of the global threat matrix.
    But neutralizing violence is only half of the equation. 
Preventing radicalization in future generations of Americans is 
also critical. Policy reform and a public health approach that 
protects those who are vulnerable to recruitment and offers 
services to people who want to disengage will be thekey to 
long-term success in countering violence-based extremism.
    I have submitted an expanded written statement for the 
record, including a video, and I am at your disposal. Thank you 
very much. I welcome your questions.
    [The prepared statement of Mr. Picciolini follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thank you so much for being here, Mr. 
Picciolini.
    Dr. Nazarian.

  STATEMENT OF DR. SHARON NAZARIAN, SENIOR VICE PRESIDENT FOR 
         INTERNATIONAL AFFAIRS, ANTI-DEFAMATION LEAGUE

    Dr. Nazarian. Good afternoon, Chairmen Deutch and Rose, 
Ranking Members Wilson and Walker, and members of the 
subcommittees. My name is Sharon Nazarian, and I serve as 
senior vice president for international affairs at the Anti-
Defamation League. It is an honor to appear before you today.
    I am here today to speak to you about the 
internationalization and increasing interconnectedness of white 
supremacist ideology around the world, which aims to 
dehumanize, threaten, and eradicate whole communities.
    White supremacy is a transnational terrorist threat that 
has already begun to engulf us all. Of the extremist-related 
domestic murders in the U.S. in 2018, ADL has determined that 
78 percent were perpetrated by white supremacists.
    The threat of homegrown terrorism inspired by Islamist 
extremist propaganda remains clear and present. In recent 
years, however, we have seen an increase in other types of 
violent extremism, and our government has failed to take 
sufficient measures to also address this rising threat.
    While white supremacists use various euphemisms to describe 
themselves, including ``white nationalist,'' ``race realist,'' 
and ``Identitarian,'' there should be no uncertainly that the 
perpetrators of these attacks and the ideological community 
that inspires them are hateful supremacists.
    Over the past 8 years, more than 175 people have died at 
the hands of white supremacists worldwide. There is a through-
line from Charlottesville to Pittsburgh, to Christchurch, 
Poway, and El Paso.
    The Christchurch killer, who slaughtered over 50 innocent 
people, cited in his manifesto Dylann Roof and Norwegian white 
supremacist Anders Breivik, who had perpetrated their own white 
supremacist terror attacks in 2011 and 2015. The Christchurch 
shooter, in turn, was cited as an inspiration by attackers at 
Poway, El Paso, and an attempted shooting at a mosque recently 
in Norway.
    In a report ADL released today titled ``Hate Beyond 
Borders''--that I have here with me--``The Internationalization 
of White Supremacy,'' we detail this phenomenon. These findings 
are a result of the collaboration that is unprecedented between 
researchers at the ADL Center on Extremism and extremism 
researchers in five countries, named the Amadeu Antonio 
Foundation in Germany, the Community Security Trust in the 
U.K., the Expo Foundation in Sweden, the Observatory of 
Political Radicalism in France, and the ``Never Again'' 
Association in Poland. The report chronicles the deepening ties 
between extremists in Europe and their white supremacist 
counterparts in America.
    The internet has increased the global interconnectedness of 
white supremacists, helping to accelerate their movement's 
deadly impact. The internet also offers community. While most 
extremists are not affiliated with organized groups, online 
forums allow isolated extremists to become more radicalized and 
dangerous. The most extreme forms of online content thrive on 
unregulated message boards like 8chan, Gab, and 4chan, but 
larger social media platforms need to remain vigilant as well.
    There is a lot more that the U.S. Government can do to 
address this threat, and we must start with leaders using their 
bully pulpit. The President, Cabinet officials, Members of 
Congress must call out white supremacy at every opportunity and 
have a responsibility not to engage in scapegoating of 
vulnerable groups. We cannot say it enough that America is no 
place for hate.
    ADL endorses several piece of legislation that would help 
as well, including the Domestic Terrorism Prevention Act, the 
DATA Act, the NO HATE Act, and the Disarm Hate Act. In 
addition, Congress can strengthen laws against perpetrators of 
online misconduct and can encourage online forums to implement 
more robust governance against cyber-hate.
    Finally, Congress and the State Department should closely 
examine whether it would be appropriate and effective to 
sanction certain white supremacist groups operating abroad if 
they meet the State Department's criteria for foreign terrorist 
organizations. Several countries, such as Canada and the U.K., 
have already added specific violent supremacist groups to their 
terrorism list.
    Thank you for the opportunity to testify and for calling a 
hearing on this very important topic. We must act swiftly, 
decisively, and comprehensively to counter this threat and 
prevent it from metastasizing.
    On behalf of the ADL, we look forward to working with you 
as you continue to devote your urgent attention to this issue. 
Thank you.
    [The prepared statement of Dr. Nazarian follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Deutch. Thank you so much, Dr. Nazarian.
    Thanks to all the witnesses for their testimony.
    We will now move to member questions under the 5-minute 
rule. Chairman Rose will begin, followed by Ranking Member 
Walker.
    Chairman Rose.
    Mr. Rose. Thank you, Chairman Deutch.
    I thank you all for your testimony.
    I would like to zero in on this issue of the actual 
infrastructure of these global organizations. Can you speak to, 
from both a training as well as ideological communication, what 
do these organizations look like? Can you please include names? 
Can you please include where they are based out of? How many 
countries they are--you do not have to be that specific, but 
regions.
    And, most especially, could you please note their 
similarities to organizations like ISIS and al-Qaeda, not just 
as they exist now but especially as they existed in thelate 
1980's and 1990's before they started attacking the West with 
large-scale attacks?
    Dr. Miller-Idriss, we will start with you.
    Dr. Miller-Idriss. First, I would like to say thank you for 
your service to this country, and I appreciate that.
    It is a very good question. I think I will speak primarily 
to the ideology. And I will say, I would prefer not to name 
groups here, but I would be happy to do that off the record. 
Just that I do not want to give any additional oxygen to groups 
that will celebrate that in a video clip.
    So I do think that what we are seeing with ideology is 
organized ideology coming through recruiters, through social 
platforms like YouTube, which--and they are getting around bans 
by using encrypted channels, so working very carefully to avoid 
algorithms, avoid bans, but then sharing encrypted channel 
information so that young people who view those can then go to 
encrypted channels to receive further ideological information.
    We know that there are training camps being run both, you 
know, overseas and in this country. There are, kind of, militia 
trainings and preparation in that way.
    And we know that they are working together in partnership 
to crowdsource, kind of, funding sometimes for activities, 
funding for legal troubles that they get themselves into, and 
working in that way, kind of, over the internet to support each 
other.
    Mr. Rose. OK. Thank you.
    Mr. Picciolini. If I may, to add to what the doctor said, 
the tactics are similar. And, first of all, when I was a 14-
year-old, I did not think I was joining a local group; I 
thought I was joining a global movement. So even 30 years ago, 
the idea of it being global existed.
    Very quickly, I took my work overseas. I was in one of the 
first American neo-Nazi bands to leave the U.S. and perform in 
Europe. So there was money and propaganda being traded even 
then, before the internet. This is not something new because of 
the internet.
    But to point out a specific group, called Atomwaffen 
Division, here in the United States, which is responsible for 
at least five murders in the last 2 years, operates very much 
like an ISIS terror cell. They are anonymous. They do not 
necessarily know who each other are.
    They do train in what they call hate camps. There has been 
a hate camp in Virginia where they train with paramilitary 
style weapons; also in Nevada, in the desert. And there is one 
being planned by a group that is a splinter of Atomwaffen 
Division that is called The Base, which is a literal 
translation for ``al-Qaeda,'' that is going to be training in 
Washington.
    As far as ideology, it is consistent globally. There is 
very little difference, if anything, between the groups that 
operate internationally and the groups that operate here. But I 
also want to make clear that it is less about the group 
structure these days and it is more about, kind of, what is 
being called the leaderless resistance. While the ideology 
controls what they are doing, there is no hierarchy in terms of 
structure for groups.
    So, while we may see the group dynamic becoming less 
popular, we should not think that this is going away. What is 
happening over the last 30 years is that the strategic plan was 
to become invisible. We encouraged people in the late 1980's 
and 1990's to not shave their heads, to not wear boots, so that 
they could blend in. There was heat coming from law enforcement 
and groups were being taken down, so they encouraged people to 
go out and try and radicalize others without bringing them into 
a group structure.
    Mr. Rose. Dr. Nazarian.
    Dr. Nazarian. So what I can tell you is that the level of 
cross-pollinization is huge. Structurally, in-person meetings, 
like conferences, rallies, music festivals, have become even 
bigger, and you see presence of American white supremacists in 
Europe and vice versa. We saw it at Charlottesville. That was a 
very clear indicator for us, where we saw the presence of 
European white supremacists at the Charlottesville rally.
    Online, what we are seeing, they are sharing podcasts. 
Gaming has become a huge platform, something that most 
legislators and others are not paying attention to. And I would 
say that messaging boards like I mentioned--8chan, Gab--these 
are places where, in a different way from ISIS and al-Qaeda, 
where there is no real physical place, this is the community 
that they belong to.
    This is truly a global effort, and it becomes a huge 
attraction point for disaffected men, youth----
    Mr. Rose. Sure.
    Ms. Nazarian [continuing]. To say that they feel----
    Mr. Rose. Thank you for your testimony.
    I just do want to put it out there that, in the coming 
days, we will be sending or distributing a letter to the 
Secretary of State identifying specific white nationalist 
foreign terrorist organizations, or organizations that we 
believe should be FTOs, and I certainly would appreciate the 
support of my colleagues here.
    Mr. Deutch. Thank you, Chairman Rose.
    Ranking Member Walker, you are recognized.
    Mr. Walker. Thank you, Mr. Chairman.
    Dr. Miller-Idriss, I have a very important question to 
start with. I am assuming, by the colors that you are wearing 
today, your allegiance would be Terrapin more than Wolverine? 
Or is this just strictly a coincidence?
    Dr. Miller-Idriss. Well, I was also a Cornellian, which is 
the Big Red, as you know.
    Mr. Walker. All right. Fair enough. We will move on from 
there.
    To your knowledge, have foreign-based members of white 
supremacist groups traveled to the U.S. to meet with groups or 
individuals here?
    Dr. Miller-Idriss. We know that individuals have come to 
Charlottesville. And we also have very good evidence of 
individuals from the U.S. going to Europe. So, yes, I think in 
both directions there is----
    Mr. Walker. So you do have some cases here or there that 
you have seen this.
    Dr. Miller-Idriss. Yes.
    Mr. Walker. OK. Great. Thank you for answering that.
    Since the 9/11 terror attacks, the government and public 
has promoted the ``See Something, Say Something'' concept to 
help alert law enforcement to terror threats. In May, the FBI 
testified that 50 percent of the domestic terror investigations 
are opened due to referrals from the public and other State and 
local partners.
    Do you have any recommendations to further improve the 
Suspicious Activity Reporting System?
    Dr. Miller-Idriss. I think the hardest thing about that is 
that the people who are most likely to know something are 
peers, are other young people, and we also know that they are 
the least likely to come forward. I think that public education 
on that can go a long way.
    We have also seen parents, in very recent years, being a 
very good source of information. But I will say that one thing 
that we lack compared to Europe is that, even when parents know 
something is going on, they do not know who to call. They are 
reluctant to call the FBI. They are reluctant to call the 
police.
    I would suggest that if we had something like a suicide 
hotline number, a phone number that parents could call that was 
to get information--that, you know, we have resources, but 
parents who do fear that their children are planning something 
do not know how to get help in a way that they think will be 
useful.
    Mr. Walker. Thank you.
    And, Mr. Picciolini, if I have time, I am going to come 
back to you, because I can tell that you may want to add 
something there.
    Let me go to Dr. Nazarian, if I could, please.
    I believe you mentioned the number, over 8 years, 175 
deaths internationally. Did I get that number correct?
    Dr. Nazarian. Yes.
    Mr. Walker. OK. And one is too many. Twenty-one per year. 
And I think part of what we are doing today is, as much as the 
numbers, we are trying to prevent the trend, as well, in that 
direction.
    Could you answer the question that I have for you? How many 
deaths over that same 8-year period of time has been due to 
religious zealots? Dr. Miller-Idriss mentioned Islamists, some 
of the fundamentalists there. Over that same 8-year period of 
time, how many murders or deaths or killings in that arena?
    Dr. Nazarian. I do not have that number in front of me, so 
I cannot tell you exactly. But what I want to be very careful 
about is this is not an either/or discussion.
    Mr. Walker. No, no, no. And I am getting to that, but I had 
a specific question. So you have no idea of that?
    Dr. Nazarian. I do not. I am happy to provide that to you 
in writing afterwards. I do not have that number.
    Mr. Walker. Dr. Miller-Idriss, would you have any idea on 
that number?
    Dr. Miller-Idriss. Not, also, in my documents here.
    Mr. Walker. Because, ultimately, we are wanting to be able 
to deal with both. So I think both those numbers are important, 
should not they be? You would agree with that?
    Dr. Nazarian. Absolutely, yes.
    Dr. Miller-Idriss. Yes.
    Mr. Walker. According to CBS, in 2017 they have a number of 
84,000 that have been murdered. And I want do some kind of 
backup. I am just coming up with this number in the last hour, 
so I want to make sure that number is valid. But I just want to 
make sure that we are concerned about that.
    I have a question--I have time to get both in--going back 
to Dr. Miller-Idriss.
    Given the concerns raised here today about domestic 
terrorism, specifically white supremacy extremism, do you have 
concerns about the ability of law enforcement to monitor 
domestic terror threats in locations where cities have pulled 
out the FBI's Joint Terrorism Task Force, or the JTTF? San 
Francisco, Portland, and some others have pulled out. Is that a 
concern for you at all?
    Dr. Miller-Idriss. I do have concerns about whether local 
law enforcement is adequately prepared, particularly given the 
evolving nature of the threat. The fact that the symbols have 
changed so much, the clothing has changed, the signals have 
changed, I am not sure that we really have awareness among 
local law enforcement or among teachers, for example, who would 
also be useful.
    Mr. Walker. Yes.
    A quick ``yes'' or ``no'' question. Do you find it 
difficult to potentially create policy that remains cognizant 
of the Constitution and the U.S. citizens' rights while also 
enabling law enforcement to detect and prevent Americans from 
being radicalized to the point of violence? Just for clarity, I 
know that is a struggle for us sometimes, the liberty versus 
the privacy and all that.
    Dr. Miller-Idriss. Yes, I think that is a very big concern. 
But I also think we have 20 years of experience now that we can 
draw on on seeing how we have done that with the American 
Muslim community to see what has gone wrong, what has gone 
right. And I would encourage us to think about that.
    Mr. Walker. And I want to honor my word to try to get back 
in Mr. Picciolini.
    Would you mind addressing for us some additional things 
that we could do for the question that I asked the doctor?
    Mr. Picciolini. Sure. And I just wanted to address that in 
my expanded statement I did name organizations that were global 
and domestic for that report.
    You know, it is very difficult for peers to identify----
    Mr. Walker. And I only have about 10 seconds, so I just 
want to be honorable to the rest of the members here.
    Mr. Picciolini. Sure. White supremacists have done a very 
good job of hiding themselves over the last 30 years. It is 
very difficult to identify them.
    Mr. Walker. OK. Thank you.
    I yield back, Mr. Chairman.
    Mr. Deutch. Thank you, Mr. Walker.
    We are going to alternate between parties and between 
subcommittees. I am going to defer for now and turn it over to 
Mr. Connolly.
    Mr. Connolly. I thank the chair.
    And welcome to our witnesses.
    I think this is a very important and consequential hearing, 
because we are not giving this topic the kind of attention it 
most certainly deserves, not to make a point, but to, frankly, 
protect society and to expose what is truly a conspiracy that 
harms people and, as you point out, Mr. Picciolini, kills 
people.
    I am from Virginia, and we saw the harm white supremacism 
can do in a peaceful university community that prides itself on 
being inclusive and accepting and diverse. And it was 
horrifying for all of us who know Charlottesville to witness 
what took place because an outside group decided to make it an 
object lesson of their hate.
    So thank all three of you for being here.
    Dr. Miller-Idriss, let me just ask, not including 9/11, 
obviously, terrorist incidents here in the United States, white 
supremacists have, in the grisly count, frankly, been, you 
know, responsible for more deaths than anything associated with 
jihadist movements. Would that be a fair statement?
    Dr. Miller-Idriss. Yes, I believe that is a true statement 
in history. Yes.
    Mr. Connolly. So when we look at the resources the Federal 
Government has marshaled to deal with, say, the jihadist 
terrorist threat, they are considerable. Would that be a fair 
statement?
    Dr. Miller-Idriss. Yes, I believe they are considerable.
    Mr. Connolly. In the tens of billions of dollars, maybe 
more.
    Now, given the fact that the white supremacist terrorist 
threat, depending on how you measure it, is certainly equal to, 
if not greater than, domestically, the jihadist terrorist 
threat, surely the resources devoted to addressing the white 
supremacist threat are comparable to those of the jihadist 
threat. Is that fair?
    Dr. Miller-Idriss. The resource question is--they are not 
equal resources.
    Mr. Connolly. They are not equal.
    Dr. Miller-Idriss. No.
    Mr. Connolly. Would it be fair to say they are not even 
close?
    Dr. Miller-Idriss. They are not even close.
    Mr. Connolly. And are there consequences that flow from 
that kind of disequilibrium in terms of the allocation of 
resources to the actual, measured, demonstrable threat, not the 
theoretical or fear-based threat?
    Dr. Miller-Idriss. Yes, there are consequences. And I will 
just say--this is from my written testimony--that the FBI has 
testified that 80 percent of their agents focus on 
international terrorism, 20 on domestic. They were able to stop 
70 percent of terrorist activities from Islamist groups in 2018 
but only 29 percent of the white supremacist extremist attacks.
    Mr. Connolly. And, by the way, my friend was talking about 
religious zealotry versus something else. But, Mr. Picciolini, 
given your experience, would it not be fair to say many of the 
white supremacists consider themselves religious zealots, 
right? They are promoting a certain culture and ethos from 
their point of view. Is that correct?
    Mr. Picciolini. Yes, sir. That is correct.
    Mr. Connolly. It would be a jihadist culture, but it would 
certainly be a radical and extreme version of their version of 
Christianity, in many cases.
    Mr. Picciolini. That is correct. And, also, in many cases, 
they refer to themselves as white jihadists.
    Mr. Connolly. So, in the time I have left after, Mr. 
Chairman, having established that there is this disequilibrium 
in resources devoted to the actual, measured threat, which I 
think this subcommittee deserves credit for having uncovered--
and I hope legislatively we will address that--I would like to 
give you an opportunity, Mr. Picciolini, to talk a little bit 
about your story.
    I mean, would it be fair to say that what motivated you, 
way back when, to join these groups or associate with them was 
maybe--certainly, two things: One was a sense of belonging, but 
the other was maybe fear and insecurity?
    Mr. Picciolini. Yes, sir. Thank you for that question.
    You know, ideology is really secondary to becoming 
radicalized. And I say radicalization starts the day we are 
born. For me, it was searching for a sense of identity, 
community, and purpose, all three of which I felt I did not 
really have a grasp on in my life.
    My parents are Italian immigrants who came to the U.S. in 
the mid-1960's. And, as immigrants, they had to work 7 days a 
week, 16 hours a day. So I did not see them very much, growing 
up. I knew they loved me, and they still, you know, do, but I 
did not see them. So I went searching for family elsewhere and 
for a sense of agency and inclusion.
    I was idealistic as a kid, but I certainly was not mature 
enough to know that I was making the right or wrong decisions 
at that time.
    Mr. Connolly. Am I up? Is my time up?
    Mr. Deutch. The gentleman's time has expired.
    Mr. Connolly. I thank the chairman. I thank him for his 
courtesy.
    Thank you all for the courage of being here today. We 
really appreciate your testimony.
    Mr. Deutch. Thank you, Mr. Connolly.
    Mr. Wilson, you are recognized for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank each of you for being here today.
    And, Dr. Miller-Idriss, I particularly appreciate your 
comment about not identifying particular groups to give them 
attention. I was just mentioning to the chairman that I 
specifically never mention the name of any of the mass 
murderers who have conducted their operations. They just should 
not be given personal recognition. That is what they want.
    Dr. Miller-Idriss. I absolutely agree.
    Mr. Wilson. And so, with that in mind, how do we identify--
and for each of you--the different extremist groups? And where 
are they located? What kind of membership do they have?
    And then, not long ago, we all faced a very identifiable 
hate group, the Ku Klux Klan. What is the status of the KKK?
    Dr. Miller-Idriss. The KKK is thriving, as are other 
groups.
    We see also internationally--I will say, one of the 
interesting things I have read recently showed that, when 
Facebook kicked the Ku Klux Klan off of Facebook, they migrated 
to a Russian platform called VKontakte. And then, in the 
Ukraine, there were 60 separate KKK groups operating on 
VKontakte when the Ukraine banned that platform. And then they 
evolved, and those groups came back to Facebook, some of them, 
by using the Cyrillic letters. They got smarter.
    So, you know, it is also an example of how single-platform 
banning does not always work; it can make the situation worse.
    But they are thriving. I think there are really good 
experts around in the U.S. and also from our allies overseas 
who can also meet off the record and can provide lists of 
groups and where they are. And I know all of us would be happy 
to do that afterward as well.
    Mr. Wilson. Thank you.
    Mr. Picciolini, do you have a comment on that?
    Mr. Picciolini. Yes. Thank you, Ranking Member Wilson.
    The groups really are everywhere. And it is less about the 
groups than it is about the individuals, and they are 
everywhere. I get requests, probably a dozen or so every week, 
from either people wanting to disengage from hate groups or 
from white supremacy, or from parents of children who are 
horrified that their kids are being recruited over video games, 
through theheadsets, playing multiplayer online games, through 
depression forums online, through autism forums, where they are 
hunting for people. Those are the types of tactics that groups 
like ISIS use as well.
    But there was a concerted strategy 30 years ago to really 
move away from the more visible elements of the movement into a 
more mainstreaming of the ideology. We encouraged people to not 
look extreme. We wanted them to go into things like the 
military to get explosives training, to join law enforcement, 
to run for office in some cases. And, in some cases, back in 
the 1980's and 1990's, we were successful with that.
    The process really started in the late 1980's with David 
Duke, who removed his Klan robe and was elected to the House of 
Representatives. That really started the process of 
mainstreaming this ideology. And it has really taken on a life 
of its own since then.
    Dr. Nazarian. I would like to add that we have to keep in 
mind that most of the most violent shooters do not belong to 
specific groups. They are lone wolves, and they are 
radicalized. So it is important to keep in mind that, really, 
the most extreme ones are self-radicalized. And that is why I 
want to bring attention to what is going on online.
    We at the ADL have actually brought members of law 
enforcement from across Europe to our Advanced Training School 
that we do in Washington, DC, once or twice a year, and we 
really train them specifically about the symbology, about what 
kind of cross-pollinization is going on, the ideology.
    But it is really the internet where we think platforms, 
both mainstream and some of the ones I mentioned and the gaming 
that I mentioned, are the structures where we have to really 
look. That is where they are meeting. That is the community 
that they come to and believe in and feel a part of this global 
movement.
    So, if I could reiterate one point, it is really about 
ourselves, the media companies, social media companies, the 
platforms have to be responsible in helping us collect data, 
and understand where the threats are coming from. They are 
talking about these things, and they are being monitored. So we 
have data that we should be able to have more transparency 
toward and to be able to see through, where are the threats 
coming from? And we just do not have that transparency right 
now. So I think the platforms really have a role here to play.
    Mr. Wilson. Well, thank each of you for raising these 
issues, and we look forward to working with you in the future.
    Thank you, Mr. Chairman.
    Mr. Deutch. Thank you, Mr. Wilson.
    Mr. Cicilline, you are recognized for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you to our witnesses, and thank you, Chairman, for 
this really important and very sobering hearing.
    I want to just ask Dr. Miller-Idriss, you make reference in 
your written testimony that white supremacist extremism is the 
most lethal form of extremism in the United States right now, 
with 50 deaths in 2018, the fourth-deadliest year since 1970, 
that hate groups are at a record high, white nationalist groups 
increasing by 50 percent--50 percent--in 2018.
    And so I guess my first question is, while we have to think 
about how do we protect the American people and be sure law 
enforcement has the resources--and I am interested to speak to 
Mr. Picciolini about ways to disengage people--I guess the 
first question I have is: Is there research that shows what is 
causing this?
    This is a significant increase. And it seems to me, 
understanding what are some of the causes of this that we might 
prevent would be a very efficient way of start thinking about 
responding to this challenge.
    Dr. Miller-Idriss. Yes. That is a great question.
    I think what we know is that young people, especially--I 
mean, it is not only young people, but young people, 
especially, have a set of grievances that are then, kind of, 
weaponized through online culture. They were led to a sense of 
feeling insecure, feeling excluded, feeling economically 
marginalized. We call it ``aggrieved entitlement,'' a sense 
that they deserve something better that they did not get.
    And then online they meet these narratives that tell them, 
you know, that there is a pathway for you to make a difference, 
to be a part of something bigger and better than yourself, to 
enact a sense of meaning, to be a hero. And also a place to 
express anger. And we know that anger and rage is part of it as 
well.
    But I think those emotional--and I really want to second 
what Christian said, that these emotional underpinnings are the 
draw, and then the ideology comes second.
    And so, when we think about preventive work, we have to 
think about what it takes to offer young people places to enact 
meaning, places to be a hero, places to engage meaningfully, in 
a moment when they are more isolated than we have ever seen 
young people before.
    Mr. Cicilline. I was a mayor before I came to Congress, and 
that was very much the conversation we had in response to gang 
violence--this same idea of connecting to something and being a 
part of something, often replacing a family organization that 
did not exist.
    But you made reference, I think, Dr. Nazarian, to the 
technology platforms. And I am just wondering what the 
panelists think that the technology companies should be doing 
in terms of identifying threats, alerting government 
authorities, possibly banning or removing content.
    It feels like that one of the really big challenges here is 
the ease at which information is shared, misinformation, this 
ideology, quickly with lots of people. And is it time to impose 
a greater responsibility on the technology platforms to play a 
more active role in this space?
    Dr. Nazarian. If I could add, I mean, just in going back to 
the things that are adding to the sensitivity of youth, you 
know, even concepts like globalization, multiculturalism, what 
they are calling ``Third-Worldism.'' Why is there such a 
reaction to nonwhite immigration to America? It is really this 
notion that whites are being replaced.
    And what I can tell you from my travels around the world, 
especially through Europe, is that Europe serves as a 
cautionary tale. American white supremacists are looking at 
Europe, seeing the influx of Muslims because of the Syrian war 
and the Iraqi war, looking at migrants coming in from Africa, 
and they are being replaced, and their purity and the white 
race that they believe in is being invaded and being 
disseminated.
    So that is first and foremost. We have to keep in mind the 
connectivity of these threats and how they see it. So Europe 
serves as that.
    Going now to the platforms, we talk about the 
responsibility of platforms to self-govern. They know how to do 
it; they are just refusing do it right now. And it takes all of 
us--our legislators, the private sector, NGO's like us--to bear 
pressure to say: You cannot only react after things happen, 
after horrific acts happen. You have to be able to do it 
beforehand and help us do it together through gathering data 
and others.
    Mr. Cicilline. Yes. And I also think it is obviously not 
helpful when we have political or civic leaders in the country 
that are using language that dehumanizes refugees or immigrants 
and speak about invasions and infestations and all of that kind 
of stuff.
    I just have a minute left, so I would like to ask each of 
you, what is the one most important thing Congress can do right 
now to respond to this urgent challenge?
    Mr. Picciolini. You know, I would say we really need to 
treat this in two ways: one, as a national security issue, but 
also as a public health crisis.
    The way to tackle deradicalization is in a public health 
way, because ideology really is secondary. People find their 
way to the ideologies, and it becomes the green light to be 
angry or the permission slip. So if we want to solve this for 
future generations, we really need to focus on social services, 
early childhood education, and mental healthcare.
    Mr. Cicilline. Thank you.
    Dr. Miller.
    Dr. Miller-Idriss. If I could pick one thing, I would urge 
you to think long-term about capacity-building and expertise.
    And I would just say that, you know, the reason why I am 
here today is because this government invested in me, funded me 
to go to graduate school with a Javits Fellowship, paid with a 
National Science Foundation, Title VI money, Title VIII money. 
All of my graduate school was funded through, you know, acts of 
this government to fund me.
    It took 22 years for that expertise to come back to this 
room and help, I hope, in this way, so it is a long game to 
invest in that way, but I hope that those investments pay off 
over time.
    And I think that we cannot just think of this as a short-
term, you know, how to shuffle money around and get immediate 
expertise in kind of a whack-a-mole type of way. We have to 
think long-term about what capacity might we need 20 years from 
now to solve whatever terrorist threats exist then. And I hope 
that long-term investments can be made.
    Mr. Deutch. Thank you, Dr. Miller. I think we feel good 
about the investment that was made.
    Mr. Cicilline. Absolutely.
    Dr. Miller-Idriss. Thank you. I hope so.
    Mr. Deutch. Mr. Zeldin, you are recognized.
    Mr. Zeldin. I thank the chairs for hosting today's hearing. 
This is an important conversation for us to be having in 
Congress.
    I appreciate the witnesses for being here.
    In our country, the way that we define words, terms are 
important to help us to talk to each other as opposed to past 
each other. I know that the ADL has definitions for the terms 
``white nationalism,'' ``white supremacy.'' I do not know if 
all three witnesses agree with those terms as defined by ADL or 
if you had any other definition. To Dr. Miller or Mr. 
Picciolini.
    Dr. Miller-Idriss. I prefer the term ``white supremacist 
extremism,'' myself, as the broadest overarching term. I think 
that ``white nationalism'' is a term that can soften the impact 
and that has also been used, deliberately, internally, to kind 
of soften it by making it seem as if this is overblown 
patriotism.
    But I also think that it is not a good exercise, in 
general, for scholars or policymakers to spend too much time 
fighting over terminology and getting too caught up in those 
debates. I think that if we know what we are talking about, we 
can agree to disagree on the terminology.
    Mr. Zeldin. But, generally, do--I guess the question is if 
you agree with the ADL's definition. I was not asking for you 
to disagree unless you--I mean, I guess you do.
    Dr. Miller-Idriss. Yes. Right. Sorry.
    Mr. Picciolini. I do not know the exact definitions, but, 
generally, having done a lot of work with----
    Dr. Nazarian. I have them. Yes.
    Mr. Picciolini [continuing]. The ADL----
    Dr. Nazarian. Happy to share it.
    Mr. Zeldin. Dr. Nazarian, please.
    Dr. Nazarian. So the ADL defines ``white supremacy'' as the 
collection of movements sharing one or more of the following 
key tenets: No. 1, white people should have dominance over 
people of other ethnic and racial backgrounds, especially in 
places where they may coexist; two, white people should live by 
themselves in whites-only society; three, white people have 
their own culture that is superior to other cultures; and, 
four, white people are genetically superior to other people.
    So they believe that the white race is in danger of 
extinction due to a rising flood of non-whites, as we talked a 
little bit about, kind of, their concerns.
    Mr. Picciolini. I would agree with that.
    Dr. Miller-Idriss. I agree.
    Mr. Zeldin. OK. I was not trying to provoke a disagreement.
    Dr. Nazarian. Yes, yes, yes. No.
    Mr. Zeldin. What is interesting in our country is the term 
``nationalism'' gets discussed as well and used with a 
different definition of ``white nationalism.'' Do any of you 
want to offer a definition of what ``nationalism'' is?
    Mr. Picciolini. I would just say that white supremacists 
have always tried to find softer marketing terms and buzzwords. 
``White nationalist,'' ``alt-right'' are their terms to make 
them seem less racist.
    But if I were to define ``nationalism,'' I would say that 
the difference between ``nationalism'' and ``patriotism'' is, 
being proud of your country and being a patriot means you want 
to share with that other people, while being nationalist means 
you want to be exclusive and not really share those resources 
or talents with others.
    Mr. Zeldin. Does the ADL have a definition for 
``nationalism''? I do not know the answer to that.
    Dr. Nazarian. I do not believe so, not that I have in front 
of me.
    But I think, I mean, in general, this idea of love for 
country, I think, as Mr. Picciolini referenced, is one that you 
share a pride, versus one that is exclusionary and is against 
the interest of others, so it is much more of an exclusionary 
feeling.
    Mr. Zeldin. You know, it is interesting, I mean, social 
media cuts both ways, especially anonymously, you could say. I 
mean, the lowest common denominator of the way either your 
internal compass is or you view others, people can be the worst 
forms of themselves anonymously.
    Some people have, I have seen on social media, declared 
themselves nationalists, and then when you look at the way they 
are commenting on issues, they do not seem to meet the 
definition of white supremacy or white nationalism. And people 
who are saying that they are nationalists--so what is 
interesting, one definition that gets used is ``identification 
with one's own nation and support for its interests, especially 
to the exclusion or detriment of the interests of other 
nations.''
    Dr. Nazarian. Yes.
    Mr. Zeldin. And what is interesting about this widely used 
definition for ``nationalist'' is that people then see the 
definition and then they call themselves a nationalist, not 
that they are excluding a specific person based off of race or 
religion, that they believe that they are supporting their 
country and saying that we should prioritize our own interests 
versus others. And then if that person is white, then they get 
called a white nationalist, and then they end up becoming a 
white supremacist.
    And it is just very interesting, what I have seen on social 
media, where people are declaring themselves to be nationalists 
but they do not seem to be violent, they do not seem to express 
any type of hate toward people of other races, religions, 
genders, and that list that goes on.
    But I appreciate you taking the time. This is something it 
is hard to do justice for in 5 minutes. But, you know, our 
country on this topic does need to do a better job 
communicating with each other to make progress.
    And, once again, thank you to the chairs for hosting 
today's hearing.
    Mr. Deutch. Thanks, Mr. Zeldin.
    Mr. Malinowski, you are recognized for 5 minutes.
    Mr. Malinowski. Thank you, Mr. Chairman.
    A couple of issues I wanted to ask you all about.
    The question of whether we should be designating groups as 
terrorist organizations often comes up. And it is, I think 
understandably, very controversial with regard to domestic 
groups, even if they have international connections.
    But I wanted to ask you, in particular, about the practical 
merits or disadvantages of designation of foreign-based white 
supremacist terrorist organizations. Would there be practical 
benefits? Is that something that you would recommend? If not, 
why not?
    Dr. Nazarian. If I may respond, we at the ADL are looking 
at that question right now, and what we can say today is that 
we really encourage both the State Department and Congress to 
seriously examine that question. We think it is worthy of 
examination. We know, as I mentioned in my testimony, Canada 
and the U.K. have done so. And I think it is really warranted 
to look at it closely and make sure that the designations fit 
the criteria the State Department has already set up.
    Mr. Malinowski. Right. So it could prohibit material 
support. It would potentially help our law enforcement agencies 
track movement of people fighting for an organization based in 
Europe--tools that do not really exist right now----
    Dr. Nazarian. Right now.
    Mr. Malinowski [continuing]. Because----
    Dr. Nazarian. Correct.
    Mr. Malinowski. Yes. OK.
    A separate issue that Chairman Rose also mentioned, others 
referred to: the whole problem of online radicalization.
    When we talk about this problem and the role that the 
social media companies play, we generally focus on deleting bad 
content and removing bad people from the online platforms. I 
think it is partly because we all understand that. You do not 
need any technical expertise to understand the importance of 
getting rid of something that is bad. But it is also whack-a-
mole. I doubt we will ever get to 100 percent, given the 
billions of people who exist on these platforms. There are new 
platforms that people move to.
    The question that I have been thinking about much more is 
not just what to do about bad content but what to do about the 
engine that promotes that bad content. If somebody goes on the 
Daily Stormer website or watches some Azad Brigade videos, what 
is likely to happen on their YouTube feed? What are they going 
to start seeing?
    Dr. Miller-Idriss. Recommended content.
    Mr. Malinowski. Recommended content.
    Now, the social media companies argue, I think 
understandably, that they are not liable for the content that 
we post. If I libel you on Facebook, I am liable for that, not 
Facebook.
    But would you agree that if Facebook or YouTube or 
Instagram is promoting content, writing an algorithm that 
causes that content to show up in my social media because they 
have guessed that I might be interested in it, that they are, 
in fact, more liable than they would be for the creation of the 
content itself? And should we do something about that?
    Dr. Miller-Idriss. I believe that the recommender systems 
and the algorithms are a huge problem and that we need pressure 
on these companies to make changes.
    Mr. Malinowski. And what changes would you suggest they 
make and what sorts of pressure? Should we, for example, look 
at Section 230 with regard to immunity for at least 
algorithmically promoted content?
    Dr. Miller-Idriss. So some of what--I mean, we know, for 
example, Dylann Roof has been very clear about his 
radicalization possibly starting with a Google search. And 
Google has made changes in the way that those searches work 
without actual legislative pressure. But if those kinds of 
changes do not come about, I think we do need legislation that 
would pressure it.
    Mr. Malinowski. Would you agree?
    Mr. Picciolini. I would agree. I think that these companies 
are a lot like countries, where they have the GDP and the size 
of--you know, bigger than most countries. But I also want to 
caution that these groups, these individuals in extremist 
movements move so fast that it is difficult to, from 1 day to 
the next, know exactly what they are doing without a focus.
    Mr. Malinowski. Right.
    Mr. Picciolini. You know, I think that the technology 
companies do have a responsibility in terms of the algorithms 
that are promoting this radicalizing material, absolutely.
    Mr. Malinowski. Thank you.
    One final question. You spoke, Dr. Miller-Idriss, about the 
anti-immigration aspect of the ideology. And, obviously, 
immigration policy is something we all debate. We have very 
different views, legitimate different views--should we build a 
wall, not build a wall, border security, immigration reform. 
But setting aside those legitimate differences, should any 
politician, candidate, officeholder use the phrase ``immigrant 
invasion''?
    Dr. Miller-Idriss. No, they should not.
    Mr. Picciolini. Twenty-five years ago, I wrote a song about 
immigrant invasion that, years later, Dylann Roof posted the 
lyrics to online. And I was just an insignificant 17-year-old 
skinhead at the time, so, certainly, people with responsibility 
for their words have more of a responsibility.
    Mr. Malinowski. That is the rhetoric of terrorism. Would 
you agree?
    Mr. Picciolini. Yes, it is.
    Dr. Nazarian. Absolutely. Absolutely.
    Mr. Malinowski. Thank you.
    I yield back.
    Mr. Deutch. Thank you, Mr. Malinowski.
    Ms. Jackson Lee, you are recognized.
    Ms. Jackson Lee. Let me thank all of you for your presence.
    Mr. Chairman, thank you--Chairmen,--persons, plural--for 
this kind of meaningful and potent meeting.
    Let me ask each of you on a ``yes'' or ``no,'' do you 
consider racism, white nationalism a national security threat? 
Each witness, just answer ``yes'' or ``no.''
    Dr. Miller-Idriss. Yes.
    Mr. Picciolini. Yes.
    Dr. Nazarian. Yes.
    Ms. Jackson Lee. One of the best feelings that I have had 
is--I will give two. I know my time is running. One was in high 
school with my best friend, who happened to be white and 
Jewish. I guess I just saw him in his role as a fellow 
traveler. It was a good feeling. I guess if we had to do it 
scientifically, there were good feelings out of that 
friendship. We liked the same things; we liked student 
government. And so good things always seem to happen when we 
were working together.
    Another sense of good feeling--and this is not a partisan 
statement--but when, in my party, I see the big tent with so 
many different people and we are all together.
    Tragically, another feeling of unity and being an American 
is in tragedy. I will take the Mother Emanuel killing. And it 
was in a huge stadium, the funeral of one of the persons. But 
everybody from the community came. There was not a respective 
color or creed. And we were together, embracing each other.
    And I think you understand what I am saying. There is 
actually a physical feeling of goodness that we are connected, 
that we are one and the same.
    So let me just ask this question to Mr.--if I have it--
Picciolini.
    In 2017, reports said that Americans who identify as white 
and Christian has dropped below 50 percent. In 2018, it was 
reported that there were fewer births among whites than deaths. 
The report stated that deaths now outnumber births among white 
people in more than half the States in the country.
    Are these demographic changes being used by white 
nationalists, No. 1? And are they finding success in recruiting 
based on these demographic changes?
    Mr. Picciolini.
    Mr. Picciolini. Yes, they are using exactly what you 
mentioned as fearmongering.
    But what I would even caution is, 20 years down the road, 
that as our climate crisis ramps up, that we are going to see a 
refugee crisis like we have never seen before, and at that 
point we will see this rhetoric ramp up. And I think that that 
is something we must get ahead of now.
    Ms. Jackson Lee. Secondarily, you used the word 
``education.'' I will ask all three of you this question. For a 
period of time, the history of African-Americans, people of 
color were literally removed from the elementary and middle 
school educational curriculum.
    What does that do, when--we saw that video that went viral. 
I just--I cried. The little 2-year-olds running toward each 
other. If you have not seen it, pull it up and feel good.
    But the point is that we do not bring our children up to 
appreciate--let me do this quickly, since I see my time.
    The other is, I asked the FBI this morning--we were in a 
FISA hearing, which has to do with various documents submitted 
to a FISA court and the international terrorism utilized after 
9/11. But what I tried to glean from this individual was what 
tools do we need to give them for domestic terrorism.
    And so, in the answer, tell me: Would it not be important 
for the FBI to have tools that refer directly to domestic 
terrorism, as we have had with foreign operatives? We cannot 
use those. Those are foreign operatives. We cannot spy on our 
citizens in the same way. But I believe there should be a 
domestic terrorism with civil liberties and civil rights 
involved, the structure, but in the DOJ.
    So if you three could answer the education and the 
enforcement part of it.
    Dr. Miller-Idriss. On the second question, yes, I believe 
that we need to understand homegrown violent extremists as 
operating across the spectrum, domestic and international, in 
ways that our current definitions do not allow for and that 
hampers our ability to enhance our national security.
    On the education question, I would go on far too long. I 
just want to say, I absolutely agree. I think this starts very 
early. And we are talking about preventative work, you know, 
cross-cultural understanding, empathy, openness to difference, 
and a wide variety of other outcomes that are just--that we are 
failing at right now.
    Ms. Jackson Lee. Mr. Picciolini.
    Mr. Picciolini. Yes, I would just say that our resources 
right now are focused in a different direction. There have been 
groups disbanded even as far back as 2006 that called out this 
problem that were disbanded and defunded. An organization that 
I co-founded was also rescinded funding for an online 
intervention program. So I think that there needs to be a focus 
on this.
    As far as education, yes, absolutely, the pre-
radicalization starts then. And it could be an extremist 
behavior like crime, drugs, prostitution, something like that. 
Those are all extremist manifestations. Or it could be flying 
to Syria or flying to the Ukraine and joining a neo-Nazi group.
    Ms. Jackson Lee. Thank you.
    Dr. Nazarian.
    Dr. Nazarian. I can tell you that ADL is the largest 
trainer of law enforcement in America of any nongovernmental 
organization. So we are training law enforcement 
representatives day-in and day-out exactly on these issues: 
what white supremacists looks like, what is their symbology, 
what is the ideology behind them.
    And we also happen to be one of the largest purveyors of 
anti-bias education in public schools in America. Over a 
million and a half students are educated by ADL on a day-in and 
day-out basis.
    So, absolutely, on both those issues, we feel they are very 
important, and we have to expand them. We have to inoculate our 
communities, we have to inoculate our children. And we also 
have to give the tools and the knowledge to law enforcement to 
be able to understand and recognize what is going on in 
communities and to help prevent them. So absolutely.
    Ms. Jackson Lee. Mr. Chairman, thank you.
    And I just want to put on the record that I did not--is 
that 8chan--and I will not have time to answer that question--
but within the construct of civil liberties, First Amendment, 
site flight that have to be addressed by the U.S. Congress. And 
they were one of the motivators of some of the horrors of some 
of the perpetrators of the most heinous mass shootings that we 
have had.
    I thank you, Mr. Chairman. I yield back.
    Mr. Deutch. Thank you, Ms. Jackson Lee.
    Mr. Green, you are recognized for 5 minutes.
    Mr. Green of Texas. Thank you, Mr. Chairman. And I thank 
all of the chairpersons as well.
    I would like to acknowledge the words of Emily Dickinson. 
She reminds us that ``a word is dead when it is said, some say. 
I say it just begins to live that day.''
    And I call these words to our attention because it is my 
belief that the tone and tenor is usually set at the top--the 
captain of the football team, the CEO of the corporation, the 
head of the Nation. And I am concerned when I read in the 
intelligence that has been accorded us that, soon after the 
March 2019 attack at Christchurch, New Zealand, President Trump 
expressed doubt that white nationalism was a rising threat 
around the world. That caused me a good deal of consternation.
    Quickly respond, if you would, to the words of the person 
who sets the tone and tenor.
    Dr. Miller-Idriss. I believe that it is essential for us to 
have bipartisan support across the board to see white 
nationalist terrorism, white supremacist extremism as a 
critical threat to the Nation. So, yes, from the top down, but 
in every local community as well, from leaders and across the 
board.
    Mr. Picciolini. This is neither a Democratic or a 
Republican problem. This is a problem of American national 
security.
    And I would say that, just back to what I said earlier, 
there were words that I wrote 25 years ago that manifested in 
death with somebody like Dylann Roof, and we must be 
responsible for the words that we say. Because while most 
people may not act on those words, we know that there are some 
people who will. We have seen the effects of that. So I think, 
certainly, we must all measure our words when it comes to 
something so sensitive.
    Dr. Nazarian. We feel the bully pulpit is tremendously 
important. And all our leaders, political and otherwise, need 
to be held accountable and responsible for the words that they 
share and also for standing up and calling things out exactly 
as they see it. So words matter. And I think all our leaders 
should be unequivocal about what is going on in our country 
today.
    Mr. Green of Texas. Were there any nice people among the 
folk who were screaming, ``Blood and soil,'' ``Jews will not 
replace us,'' at Charlottesville? Any nice people among them?
    Mr. Picciolini. Sir, in my job, I have to believe that 
there were nice people there because it is my job to try and 
pull them out. However, I think the statement of ``very fine 
people there'' was a very dangerous one because it did 
equivocate two things that were not equal.
    Mr. Green of Texas. Finally, this. I have lived a long 
time. Sometimes I think I have lived too long, to be quite 
honest. I have seen what racism can do to people. And I marvel 
now at how I have lived long enough to see the Klan come out of 
the robe, take the hoods off, march the streets openly and 
notoriously. I, quite frankly, 20 years ago would not have 
prognosticated that such would be the case.
    Something has happened to give them reason to believe that 
they can show their faces. Please--I have 1 minute left--what 
happened?
    Dr. Miller-Idriss. A lot of things have happened that have 
brought, I would say, the underlying racist, you know, things 
that people used to hide, out. So it is not just the fringes 
coming; it is that the racism has moved more into the 
mainstream.
    And I think we are seeing that the way that social media 
operates, the kind of rhetoric that we hear from political 
leaders and in the media has legitimized and reinforced those 
words. And I think the, kind of, manifestos and the global 
circulation of videos seems to empower these people as well.
    Mr. Green of Texas. I know that you all have salient 
answers, but I have to ask this question quickly. Do you 
believe that those who tolerate bigotry and hate perpetuate it? 
Toleration; perpetuation? Acceptance; perpetuation?
    Please respond.
    Mr. Picciolini. If I might, there are two things that 
extremists love, and that is silence and violence. When we 
ignore them, they grow. When we are violent against them, they 
use that as a victim narrative. And if we are quiet about what 
is happening in the world today, if we are not speaking truth 
to it, it will grow. It will fester, like it has for 400 years.
    And we have an opportunity, I think, right now, as a 
learning moment, to really acknowledge the problems, the 
failures that we have made, and work toward a solution that 
works for everybody.
    Mr. Green of Texas. Thank you, Mr. Chairman. You have been 
more than kind.
    Thank you.
    Mr. Deutch. Thank you, Mr. Green. I appreciate the 
questions.
    I neglected to ask unanimous consent that you and Ms. 
Clarke be able to ask questions as members of the full 
committee.
    Without objection.
    Ms. Clarke, you are recognized for 5 minutes.
    Ms. Clarke. I thank you, Mr. Chairman. I thank both the 
chairman and the ranking member for holding this very important 
hearing.
    And I just want to get some feedback on a number of the 
questions that were provided to us, because you have given a 
lot of really important testimony.
    Mr. Picciolini, I am really interested in the 
deradicalization process. Were there certain messages or 
approaches that were most effective in your deradicalization 
process? And, in your opinion, which aspects of current 
deradicalization efforts work, and which do not?
    And I heard you mention about, sort of, the early childhood 
education piece, but you were caught at a later stage in life, 
so that would be very informative.
    Mr. Picciolini. You know, I do a lot of listening rather 
than debating or arguing, and what I learn from listening is 
what I call potholes. And those are the things that people run 
into in their life's journey. It could be trauma, it can be 
poverty, it can be joblessness. Even privilege can keep us in a 
very isolated bubble.
    And what I do is I fill those potholes in. I work with 
social services, psychiatrists and other mental health 
professionals, job trainers, to really build resilience in 
people, without addressing the ideology.
    The way I address the ideology is through introducing them 
and immersing them with people that they think that they hate.
    Now, that is a process that happened to me. I received 
compassion from the people I least deserved it from at a time 
that I least deserved it. And for me, that was the most 
powerful, transformative thing, because I had never in my life 
had a meaningful interaction with the people I thought I hated. 
I had been brought in at 14.
    It is certainly not the responsibility of people of color 
or potential victims to do that, which I think means we just 
need to be nice to everybody all the time, because we never 
know who we are dealing with.
    But the most powerful thing for me is actually going 
through that process of human resilience-building rather than 
debate.
    Ms. Clarke. And how do we engage and educate influencers 
within the communities that white nationalist terrorist groups 
target to help counter-message extremist propaganda?
    Mr. Picciolini. Is that for me?
    Ms. Clarke. Yes.
    Mr. Picciolini. Well, I think we just need to acknowledge 
that we have a problem, first. I think we are still debating 
about if this is a problem.
    Once we acknowledge that it is a problem, I also think that 
we need institutional and systemic changes. Because the way it 
is happening right now, what I do as far as deradicalization 
work, it is a Band-Aid. You know, we have to treat it like 
polio. I treat the sick, but we also have to inoculate the 
population from getting sick. And that is through systemic and 
institutional change. Otherwise, we just have a factory where 
we are churning out racists all the time.
    Ms. Clarke. Very well.
    And then I wanted to ask about women. We oftentimes hear 
about white males in this dynamic, but in some of the, sort of, 
visuals that I have seen, I have seen women in photos that 
espouse similar ideologies.
    Is there a place for women in the contemporary white 
nationalist movement? And if so, what does that look like?
    And that is for the entire panel.
    Dr. Miller-Idriss. We are seeing increasing participation 
of women in white supremacist groups, both in the U.S. and in 
Europe, even in violent fringe groups and even in terrorist 
violence. They are still, by far, the minority compared to men 
in terms of violence, but they are engaging.
    They are also engaging on channels like YouTube, setting up 
channels that promote the ideology, that draw people in, and 
that kind of soften it a little bit, and are supporters in that 
way--enablers, I would say.
    So I think they play a very important role and have been 
overlooked.
    And the other thing I will say is that mothers play a very 
important role in some of the deradicalization work. And we 
have seen that with ISIS and foreign fighters--mothers groups 
and parenting groups. And I think we could see a similar kind 
of wave of parenting programs in the U.S. around white 
supremacist extremism as well.
    Dr. Nazarian. And I can just add that, internationally, we 
are also seeing a rise in the terms of the role of women, 
because the issues that, you know, inflame them, such as anti-
immigrant sentiment, cut across all gender lines. So it is not 
an issue that is more male or female. It is that they are 
feeling that their culture or their beliefs are being overrun 
by immigrants bringing different beliefs, different religions.
    So it definitely goes across lines, and you see women also 
being much more animated and much angrier about the fact that 
their white culture is being diluted, that they are being 
replaced, internationally as well. So, unfortunately, that goes 
across all genders.
    Mr. Picciolini. And just very briefly, women are being used 
as mouthpieces, as recruitment vessels. They are often the ones 
tasked with doing the podcasts, making the videos, because 
women attract more men to the organization.
    And I will just point out, there was a report yesterday of 
a young woman who was arrested with an AR-15 in her trunk who 
had made threats against shooting 500 people and had drawn 
swastikas on her stuff.
    So this is something that we will start to see mimic ISIS 
in the way that that happened as well.
    Ms. Clarke. Well, thank you very much. I appreciate your 
indulgence. I yield back.
    Mr. Deutch. Thank you, Ms. Clarke.
    And Ms. Omar, who is a member of the full committee, has 
also asked to ask questions. And, without objection, you are 
recognized for 5 minutes.
    Ms. Omar. Wonderful. To the co-chairs of this committee, I 
really do appreciate the opportunity to be allowed to join you 
all.
    And to the testifiers, thank you so much for taking the 
time to have a really critical conversation on the ideology 
known as white nationalism.
    The goal of these terrorists in this particular ideology is 
articulated after each attack, and it is one that is as 
consistent as it is unhinged: to create a white ethno-State 
that excludes religious, ethnic, and racial minorities.
    Far-right terrorists were linked to every single extremist-
related murder in 2018, the most in any year since 1995, 
according to the Anti-Defamation League. The Southern Poverty 
Law Center reports a 50-percent increase in white nationalist 
groups from 2017 to 2018. I will not speculate on why that has 
happened. And according to the SPLC, 81 people were killed by 
those influenced by the alt-right since 2014.
    So I will repeat something I have said before; it is a 
statement of fact: White men, driven by hateful ideology of 
white nationalism, are committing the overwhelming majority of 
extremist attacks in this country. And we are not doing enough 
to confront it.
    This is not an indictment of all white men, just like the 
despicable acts of few al-Qaida terrorists is not an indictment 
of all Muslims. It is, rather, a call for action. If we are 
going to take serious the threat of terrorism, we must truly do 
everything we can to minimize that threat.
    So I apologize if I mis-say your name. Mr. Picciolini?
    Mr. Picciolini. Very good.
    Ms. Omar. OK. I wanted to ask you something that was 
written in your testimony. You said, ``Adequate terrorism laws 
already exist to thwart and prosecute terrorists, as do plenty 
of capable and talented people who are ready to defend us from 
the threat of harm, but the current counterterrorism mandate 
does not provide for the proper focus, resources, and funding, 
or, in some cases, the correct holistic approach to effectively 
counter terrorism.''
    I worry about that too, a lot. Of course I agree that white 
nationalism should be considered terrorism, but I am concerned 
about repeating some of the policy mistakes we have made in the 
so-called global war on terror since 9/11.
    I have been working to get more transparency on the 
Terrorist Screening Data base. For example, I do not see a 
solution to white nationalism that is simply to just add more 
people onto that list. We have gone down the wrong road, and if 
we start talking about taking Klansmen to Guantanamo, what are 
we really saying?
    I believe in restorative justice. Some have faulted me for, 
you know, talking about ways that we should figure out how to 
rehabilitate people and how that is actually one of the 
strongest counterterrorism acts that we could deploy. I believe 
it is a moral thing, but I also feel like, again, it is one of 
the best ways to fight terrorism and extremism.
    And so I would love for you to sort of walk us through what 
are some of the holistic approaches we should take. And could 
that be something that could be deployed even abroad as we 
fight terrorism as well?
    Mr. Picciolini. Yes. Thank you. That is an important 
question. And I would say, as far as the holistic approach, it 
is more toward prevention. So, you know, making sure that young 
people feel like they have agency, like they are amplified 
through their passions, so that they are not alienated in 
youth. Because what I have found is that, you know, people are 
not born Nazis or racists; they learn it. And they can also 
unlearn it as well. But it takes repairing the foundation 
underneath them and building human resilience to do that.
    But in terms of the more holistic approach, it really is 
about prevention and inoculating the population. We cannot just 
focus on the national security side if we are not ever going to 
turn the flow of the tap off to create more of these 
extremists.
    So I think that we have to have more inclusive programs in 
school. We have to start teaching our history the right way, 
you know, not only about, you know, 1619 but also that we are 
teaching the Civil War different in different parts of the 
country, where in some places it is about northern aggression 
and in some places it is about slavery. We do not even have 
that sort of consistency.
    So, in terms of a holistic approach, it really is about 
looking at our policies and our institutional, in many cases, 
racism to try and make sure that we are creating an equitable 
foundation for young people moving forward.
    But as far as holistic as well as national security, it 
would be providing solutions for people who want to disengage 
to disengage and be able to do that. But, certainly, you know, 
there is a national security threat that should be dealt with 
with policy.
    Ms. Omar. I appreciate that.
    With that, I yield back my time.
    Mr. Deutch. Thank you, Ms. Omar.
    Ms. Jackson Lee had asked unanimous consent to enter three 
articles into the record: a PBS article, ``White Christians Are 
Now a Minority of the U.S. Population''; a New York Times 
article, ``Fewer Births than Deaths Among Whites in a Majority 
of U.S. States''; and an ABC News article, ``Experts Dissect 
Reasons Why Mass Shooters Target Houses of Worship.''
    Without objection, they will be entered into the record.
    [The articles follow:]

    Mr. Deutch. And, finally, I will acknowledge myself.
    I am really grateful for your being here today.
    I want to talk about two things.
    Mr. Picciolini, when--you have all talked about the 
responsibility that platforms have to do a better job. We have 
this sense that there is a Facebook page and people go to the 
Facebook page and they get radicalized. And that is not how it 
works. They are drawn in, Mr. Picciolini, right?
    And it is through the social media that we get access, and 
then they are given the link to get to the dark web, the 8chan, 
or they will get to the other site where they can watch--it is 
not a cleaned-up version--where they can watch people out 
screaming horrible things on video, shooting off their AR-15s, 
talking about what they want to do to blacks and Jews and 
Muslims.
    Is that not right?
    Mr. Picciolini. That is correct. They have what they call 
gatekeepers, who are very, kind of, benign, not very outwardly 
white supremacists. And then they kind of send them into a 
stepped process, purity spiral, where they eventually get into 
Holocaust-denial videos and things like that.
    Mr. Deutch. Right. And so what should we be--I mean, I 
think we need to stop tiptoeing around this issue. We do this 
nicely, but the fact is, there is a way in. And if there is a 
way in, there is a way to block the way in, is not there? So 
what more, specifically, should we be doing?
    And I will ask all the witnesses.
    Dr. Miller-Idriss.
    Dr. Miller-Idriss. Well, I think there are a few things. 
One, I think we need to have many more of these kinds of 
conversations, both on the record, off the record, also with 
experts on online radicalization and experts who have been, you 
know, recently deradicalized through online radicalization.
    I think we need to figure out ways to change the 
recommendation systems, those recommender systems. But I also 
think we need to figure out ways to fund more proactive 
approaches to--you know, you can game the algorithms, too, by 
funding people who are putting positive content on there so 
that you get more positive content showing up in the feeds, 
right, instead of just----
    Mr. Deutch. Yes. If someone is searching--if I may, if 
someone is searching for hate-filled videos and there is 
research that shows--and Mr. Picciolini's own experience that 
shows where that can lead, then maybe the right algorithm is 
not the one that takes them to even more violent, hate-filled 
videos, but maybe it is the opposite direction.
    Is that not right, Mr. Picciolini.
    Mr. Picciolini. That is right. And there is so much content 
being uploaded, that it is really relied on AI to make those 
decisions right now.
    Mr. Deutch. Right.
    Mr. Picciolini. But I would also caution, too, that so much 
of this propaganda is coming from outside of the U.S. and being 
bolstered--these messages here, domestically, are being 
bolstered by, you know, places in Eastern Europe and in Russia 
in troll farms. So it is going to be difficult, because they 
are just marketing methods.
    And they have also created their own platforms. So we can 
de-platform them all we want, but they have now created their 
own social networks and encrypted platforms.
    Mr. Deutch. And you talked about VKontakte. What is 
happening abroad on the social media and the thousands of 
people going to Ukraine, Dr. Nazarian, can you just touch on 
that for a second and how social media and actual on-the-ground 
violence come together?
    Dr. Nazarian. What we do see is actually the terminology 
and symbology they are sharing with one another. So we are 
seeing the use of, in this cross-pollinization--and I talked 
about it--the use of terminology from Ukraine penetrating to 
America and vice versa.
    I did want to say that--look, the terms of service of the 
platforms have to be more clearly adhered to. They are 
responsible, the platforms themselves, to make sure that the 
rules they have are enforced. And they are not doing a good 
enough job, or at scale. So there is room for improvement 
there.
    And we would also, at ADL, really like to see better 
governance. We want to see them scheduling external, 
independent audits of their work. They are not really telling 
us how much information is coming in in terms of data that is 
being flagged. We do not really know how much reporting has 
gone on. All they are telling us are things that they are 
moving on, that is actionable.
    So better transparency in terms of how much reporting of 
hate language is coming in, we do not really have that as well, 
and I think that is a problem.
    Mr. Deutch. We should have better transparency.
    And then one other--you mentioned online gaming.
    Dr. Nazarian. Yes.
    Mr. Deutch. There is a tendency of some to blame video 
games for violence. That is not what I want to talk about.
    Dr. Nazarian. No.
    Mr. Deutch. I want to talk about the actual conversations 
that are taking place, that presumably those online gaming 
companies have some access to? How does that work, Mr. 
Picciolini?
    Mr. Picciolini. Yes. So what is happening is, when young 
people or anybody, really, is playing a multiplayer online 
game, they are wearing headsets and they are usually playing 
with multiple people. And what happens--and I have witnessed 
it--is a recruiter will say something like the ``N'' word or 
make a joke and gauge who laughs, who pushes up against it, and 
who does not say anything. Well, they know they can go after 
the people who have laughed. Even if it was a nervous laugh 
from a 10-year-old, they know that they have an in there, and 
they send them down a spiral.
    But it is also happening in places like depression forums 
and autism forums online, where they are going there to look 
for----
    Mr. Deutch. Are those monitored? Is there a way to address 
that?
    Mr. Picciolini. Well, you know, I think that there are 
probably moderators for all of those rooms, but I do not think 
that they would be skilled in identifying----
    Mr. Deutch. Is there a way that AI could be employed to 
identify those sorts of conversations?
    Dr. Nazarian. We do know that they are unregulated 
completely. So the fact is that we, as legislators, as people, 
have to look at these sectors, and that they need to be better 
regulated. And we know for a fact right now they are not 
regulated.
    Mr. Deutch. And, finally, I just want to end with this. 
There has been conversation about the mainstreaming of 
ideology. And we started by talking about the importance of 
identifying white nationalist terrorism, white supremacist 
ideology--a discussion of language.
    But it is not the mainstreaming of ideology, is it? It is 
the mainstreaming of what is that ideology. It is the 
mainstreaming of racism and the mainstreaming of anti-Semitism 
and Islamophobia and xenophobia.
    And when you talk about David Duke taking off his hood and 
entering politics, it is not that we should then start 
identifying the language that identifies him as a white 
supremacist. It is any time any one of us ever uses the 
language of racism and anti-Semitism and other forms of hatred, 
isn't it? And do not we have an obligation--is it too much to 
ask that that language just never be accepted?
    Dr. Nazarian. Yes, absolutely.
    Mr. Picciolini. You are absolutely correct. Yes.
    Mr. Deutch. I am really grateful for the three of you 
coming and for this hearing and the thoughtful exchanges that 
you had with my colleagues.
    I thank the members of both subcommittees for being here 
today.
    Members may have some additional questions for you, and we 
ask our witnesses to please respond to those questions in 
writing.
    I would ask my colleagues that any witness questions for 
the hearing be submitted to the subcommittee clerks within 5 
business days.
    [The information referred to follows:]

    Mr. Deutch. And, with that, without objection, the hearing 
is adjourned.
    [Whereupon, at 3:57 p.m., the subcommittees were 
adjourned.]

                                APPENDIX
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

       STATMENTS FOR THE RECORD SUBMITTED FROM COMMITTEE MEMBERS
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

             ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]	

                  INFORMATION SUBMITTED FOR THE RECORD
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]	

                                 [all]
</pre></body></html>
